NO.
IN THE SUPREME COURT OF THE UNITED STATES

SHERI SPEER,
PETITIONER
vs
SEAPORT CAPITAL PARTNERS, LLC,
RESPONDENT,

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains approximately 1,455 words, excluding the
parts of the petition that are exempted by Supreme
Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct to the
best of my knowledge and belief.
Executed on this June 25, 2010

NO.
IN THE SUPREME COURT OF THE UNITED STATES
SHERI SPEER,
PETITIONER
vsSEAPORT CAPITAL PARTNERS, LLC,
RESPONDENT,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that copies of the Petition for a Writ of
Certiorari were transmitted to the following parties
and counsel of record simultaneously with their filing
with this Court:
Executed on this June 25, 2010

11‘1_1
(;
111111111°7---

Attorney Donna Skaats 210 West Town Street 2.1Floor Norwich,
CT 06360
Attorney Patrick Boatman 111 Founders Square Suite 1000 East
Hartford, CT 06108
Boscarino, Grasso & Twachtman LLP 628 Hebron Ave Bldg 2
Suite 301 Glastonbury, CT 06033

